No.

r

V

FILED
OCT 2 8 2020

IN THE

QcpjQ0Qc THE CLEfik!

SUPREME COURT OF THE UNITED

— PETITIONER
(Your Name)
vs.
Uni+eA

S-fg+cs

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

j x-f~K

a. i rcu<+

Courf

gf

Apf>e.c.l<

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

E’r/ke,
(Your Name)

Al^cLJc^A

FCi (Y\ck eg/i
(Address)

H^AfcrA ?A

To hex %ood

T

iL7ol

(City, State, 2*ip Code)

(Phone Number)

UNITED STATES SUPREME COURT
FOR THE SIXTH CIRCUIT

DAVID MACLLOYD,
Pro Se Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent

PETITION FOR A WRIT OF CERTIORARI

QUESTION PRESENTED
I.

Should a Writ of Certiorari Issue because the Sixth Circurit failed to apply

. the Pro Se litigant standard to a Pro Se Defendant’s pleadings?

Background
In May 2019, I filed a motion for a reduction of a sentence pursuant to
the 18 USC 3582. The District Court denied that motion on December 5, 2019. The
District Court mailed the order to me via ordinary mail on December 5, 2019.
On January 24th, 2020, I mailed a letter to the District Court asking was the
Order denying my sentence reduction appealable. The District Court received my
letter, which was postmarked January 30th,
the District Court treated the letter as

2020, on February 7th, 2020. In turn,
a Notice of Appeal and filed it.

On

February 10, 2020, the Sixth Circuit mailed me a letter instructing me to place
a signature on my Notice of Appeal and return by February 24th, 2020. On February
25th, 2020, the Sixth Circuit mailed me a briefing schedule with my first
due April 8th, 2020.
due date. On May 7th,

brief

I submitted my brief approximately one month before my
2020,

the government filed a Motion for Extension. This was

1

four days before the government's brief was due. On May 28th; 2020, the government
filed a Motion to, Dismiss Appeal as Untimely. The Government cited Rule 4b
FRAP which states that a Court is required to dismiss late appeals
Government raises the issue of timeliness.

of

if the

The Government states that my appeal

was due no later than December I9th. The Sixth Circuit sided with the Government.

Reasons for Granting the Writ
This District Court mailed my Order via ordinary mail on December 5th,
2019. Because Of the "mailbox rule" my fourteen days to file a Notice of Appeal
did not start until December 6th,

2019. To start my Notice of Appeal clock

while my order is still being processed by the Postal Service seriously under­
mines my "due process rights" that, are afforded to my by the 5th Amendment. Time
to file a Notice of Appeal is almost expired by the time I receive the Order.
Under Rule 3 of the FRAP the District Court had the discretion to treat
my letter as the "functional equivalent" of a Notice of Appeal.
Rule 4 (b) is not jurisdictional it gives Courts discretion to
lines, for defendants.
that once they raise

Also, because
waive filing dead­

It is the government's position that under FRAP Rule 4(b)
untimeliness

my appeal should automatically be dismissed.

US v. Gaytan-Garza, ,652 F., 3d 680, 681 6th Cir.

2011. This may be the case for

a seasoned attorney, but not for a Pro Se litigant acting in good faith. For a
Pro Se litigant all documents and pleadings should be construed liberally as
to do substantial justice. In Gaytan-Garza the defendant attempted to file a
Notice of Appeal "four years" later, and this is not the case here. The District
Court liberally construed my letter as a Notice of Appeal. FRCP Rule 8(f) and
Estelle, 429 US at 106, 97 S. Ct. 285 50 LED 2d 251

2

When a Pro Se defendant filed a notice of appeal after the fourteen-day
deadline of Rule 4(b), but before the additional thirty-day period for request­
ing extentions as expired, the district court should

treat the notice as a

request for extention of the filing deadline. U.S. V. Montoya, 335 F. 3d 73,
76 (2nd Cir. 2003). As a Pro Se litigant this gives me a minimum of fourty-five
days

from when I first received the order to file an appeal. I placed my letter

in the prison mailbox on January 24th,

2020 and it was not post marked until

January 30th, 2020. From there it took "another" seven days just for the Court
to,receive my letter. It took a total of "thirteen" days for the Court to receive
my letter. I believe that the District

Court is well aware of the hurdles that

ProSe litigants encounter from day to day and that is why my letter was treated
as a Notice of Appeal.

My documents should be held to the standard of a Pro Se

litigant and not that of a "seasoned" attorney with "E-FILE".

Lasty, the Sixth Circuit has adopted the rule that the government as up
until their first brief

to

raise untimeliness. Under FRAP the government had

30 days to respond to the filing of my notice of appeal. They did

not do this

until almost "four months" later. Please excuse*me as I am unable to locate in
the FRAP that the government has until it's first brief to raise untimeliness.
Even if I were able to locate the "first brief rile" technically the first brief
was the "Motion for Extension". I would also like to add that in

the government's

"Motion to Dismiss" they did not say my appeal was meritless. A Writ of Certiorari
should issue because my appeal has merit,

my letter was properly construed as a

Notice of Appeal, and I was well within the Fourty-Five day filing deadline that
is afforded to Pro Se litigants.

In the name of justice

I pray that this High

Court preserve my "Constitutional" rights.
Respectfully submitted,
David MacLloyd
3

*

CONCLUSION

.■

The petition for a writ of certiorari should be granted.
5

:

:

Respectfully submitted,

!
i

ojj-u

'•

Date:

Q-h 31

